GR-50-98-010
U.S. DEPARTMENT OF JUSTICE
 

Audit Report
 
OFFICE OF COMMUNITY ORIENTED POLICING SERVICES 
GRANTS TO THE YOUNGSTOWN, OHIO POLICE DEPARTMENT
Award Numbers 94-DM-CX-0121 and 97-UM-WX-0661
Audit Report Number GR-50-98-010
March 25, 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of two
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Youngstown, Ohio Police Department (Youngstown Police).
The Youngstown Police received a grant of $600,000 to hire 8 additional sworn police
officers under the Phase I program, and $1,500,000 to hire 20 officers under the
Universal Hiring Program (UHP). The purpose of the additional officers is to enhance
community policing efforts. In brief, our audit revealed the following:


- Costs charged to the Phase I grant were generally not in accordance with grant
    requirements. This occurred because the Youngstown Police did not maintain the minimum
    number of locally funded sworn officers. Between FY 1993 and FY 1995, the number
    of officers decreased from 208 to 201. During that period, funds budgeted for sworn
    officers' salaries and benefits decreased from $6,554,101 to $6,027,854, although the
    overall police department's budget increased. As a result, $554,792 of federal funds for
    COPS grants were used to supplant local funds for law enforcement. We question $451,502 in
    reimbursement and recommend that the COPS office withhold an additional $103,290
    requested, but not yet received by the Youngstown Police.
- The Youngstown Police incurred only $5,216 allowable costs under the $1,500,000 UHP
    grant awarded on December 6, 1996, due to a hiring freeze imposed by the Mayor. We
    recommend that the COPS Office de-obligate the $1,494,784, unused portion of the grant, if
    the hiring freeze is not lifted.
- The Youngstown Police did not submit either the Department Initial Report or the
    Department Annual Reports for 1995. All but two of the Phase 1 Financial Status Reports
    were submitted to OJP, but most were late and inaccurate. All three of the UHP Financial
    Status Reports were submitted late.
#####